Audit of NSF’s Recovery Act Data
    Quality Review Process



     National Science Foundation
     Office of Inspector General



           October 29, 2009
            OIG 10-2-001
Results of Audit

Overall, NSF appears to be putting in place an adequate process to meet OMB
requirements for limited data quality reviews of Recovery Act recipient quarterly
reports. Specifically, NSF is establishing a process to perform limited reviews
intended to identify material omissions and/or significant reporting errors on
recipient quarterly reports and notify recipients, when necessary, of the need to
make appropriate and timely changes. However, its data quality policies and
procedures are still in draft form, and NSF is still working out some of the details
of its process. We expect that NSF will continue to revise its processes based on
lessons learned during this first reporting period. Consequently, we have
provided some suggestions for NSF to consider as it refines this process
including the need to consolidate, finalize, and obtain appropriate senior Agency
management review and approvals of its policies and procedures.


NSF’s Draft Plans for Data Quality Reviews Appear
Adequate

Recovery Act Requires Quarterly Reporting

Section 1512 of the Recovery Act requires recipients of Recovery Act funds to
submit a report to FederalReporting.gov not later than 10 days after the end of
each calendar quarter. Recipients are required to include in these reports:

    o The total amount of Recovery funds received;
    o The amount of Recovery funds expended or obligated to projects or
      activities; and
    o A detailed list of all projects or activities for which recovery funds were
      expended or obligated; and
    o Estimates of the number of jobs created and retained by those projects or
      activities.

Federal Agency Data Quality Reviews Required

The Office of Management and Budget (OMB), provided guidance 1 to both
Federal agencies and Recovery Act recipients to ensure reporting requirements
are effectively implemented. This guidance not only outlines specific data
elements that awardees are required to report on and timelines to do so, but also
requires Federal agencies to develop internal policies and procedures for limited
quality reviews of reported Recovery Act data. These reviews are intended to
1
 OMB Memorandum for the Heads of Departments and Agencies, M-09-21, “Implementing
Guidance for the Reports on Use of Funds Pursuant to the American Recovery and Reinvestment
Act of 2009,” June 22, 2009.

                                                                          Page 1 of 8
emphasize the avoidance of two key data errors: material omissions and
significant reporting errors. Federal agencies must also notify recipients of the
need to make appropriate and timely changes to their data. The OMB
Memorandum further encourages Federal agencies to use these reports to:
   o help assess compliance with the terms and conditions of individual award
        agreements;
   o further assess risks; and
   o determine, if necessary, when to release remaining funds.

NSF Drafts Initial Process for Limited Data Quality Reviews

NSF appears to be meeting the requirements in OMB Memorandum M-09-21 by
establishing a process to perform limited data quality reviews intended to identify
material omissions and/or significant reporting errors on recipient’s Recovery Act
quarterly reports and notify the recipients of the need to make appropriate and
timely changes.

Although still in draft form, NSF has developed eleven specific documents that
together comprise NSF’s intended process for carrying out data quality reviews
of recipient reports under the Recovery Act. 2 Some of the key features of this
process are:

    o Accountability: NSF has outlined specific roles and responsibilities for
      NSF’s various Directorates and Divisions and created a dedicated team to
      ensure implementation of the data quality policies and procedures. NSF
      will also update the ARRA Steering Committee on a weekly basis of the
      overall results of the data quality review process.

    o Automated Data Checks: NSF is developing an automated system to
      check 31 of the 99 Recovery Act reporting data elements against existing
      NSF databases. In addition, NSF is planning to sample a portion of its
      Recovery Act awards to conduct further testing to identify omissions
      and/or reporting errors.

    o Avoidance of material omissions and significant reporting errors:
      NSF has defined material omissions and significant errors through the
      lens of misleading the public and identified three specific data elements for
      immediate screening.

    o Non-Reporting: In addition to conducting outreach to recipients and
      sending out reminder emails to Sponsored Research Offices to help
      ensure timely reporting, NSF will employ an automated process to identify


2
  NSF pointed us to eleven different source documents for its policies and procedures for
performing limited data quality reviews. Many of these documents are still in draft form, but taken
together they provide a picture of how NSF is addressing this important requirement.

                                                                                 Page 2 of 8
        non-reporting recipients.

    o Systemic or Chronic Problems: Through use of a contractor, NSF is
      developing a tool to track recipient reporting errors and corrections made
      over time. In addition, NSF will use this contractor to assess trends in
      reporting compliance.

    o Awardee Compliance: NSF also plans to use the results from the data
      quality review process to assess awardee compliance with the award
      terms and conditions and to implement additional corrective actions if
      needed. These actions may include the imposition of additional award
      terms or the reduction or termination of the award. NSF also plans to
      incorporate findings into NSF’s existing risk assessment process.

While this process appears to address the primary needs for such reviews, it is
too early to determine its full effectiveness. In addition, we expect that NSF will
continue to revise its processes based on lessons learned during this first
reporting period. Consequently, we are making no formal recommendations to
NSF at this time. Alternatively, we do have suggestions for NSF to consider as it
continues to refine and finalize its policies and procedures. These suggestions
are described separately below. Finally, we may conduct additional work to
assess the full adequacy and effectiveness of this process in the future.

    o Consolidate and Finalize Draft Quality Review Program Policies and
      Procedures: After an initial period of performing and testing its data
      quality review process, NSF should finalize and consolidate its various
      procedural documents into an integrated and cohesive Data Quality
      Review Program policy and procedures document. As part of that
      process, because NSF’s data quality review process is a major control for
      ensuring Recovery Act funds are spent timely, prudently, and effectively, it
      is important for NSF’s ARRA Steering Committee and the Senior
      Accountability Official, who are responsible for achieving NSF’s Recovery
      Act goals, ensuring accountability, and mitigating risks, to review and
      approve NSF’s data quality review policies and procedures. This final
      policy should also formally document key accountability roles such as
      those of the NSF data quality reporting team.

    o Chronic Reporting Problems: NSF should establish a definition for
      “chronic” reporting problems and the actions NSF will take for specific
      instances of noncompliance with reporting. 3 NSF should also consider
      what preventive actions it may take to ensure errors identified in one




3
 It is especially important to define these actions as the recipient reporting requirement found in
Section 1512 of the Recovery Act is also a term and condition of each NSF ARRA award.

                                                                                  Page 3 of 8
        quarter are fixed in the next quarterly report. 4 NSF’s written notification to
        recipients regarding the need to make appropriate and timely changes to
        quarterly reports should also inform recipients of the consequences of
        repeated reporting problems.

    o Continued Risk Assessment: Because of the statutory requirement for
      recipient reporting that is also a term and condition of every Recovery Act
      award, NSF should continue to develop its plans to use ARRA recipient
      reporting as part of NSF’s continuing risk assessments for its ongoing
      award monitoring program.

    o Record Retention: As NSF’s process for performing limited data quality
      reviews of recipient reports will generate various documents evidencing
      such reviews, NSF should fully develop and document its retention
      policies for all current and future data quality records, such as emails to
      institutions.

    o Contingency Planning: At the time of our audit, NSF and its contractor
      had not finalized the automated system or tracking tool, and the NSF
      contract did not include timeframes for when the contractor needed to
      complete these and other data quality deliverables. In addition, NSF
      cannot yet ensure that its automated system and controls will, in fact,
      function as intended. We are also concerned that NSF may not have the
      resources available to carry out its contingency plan, particularly to
      manually check every Recovery Act award’s jobs created numbers, if the
      automated system should fail. Consequently, we suggest that NSF
      formally document a contingency plan in the event that the expected
      automated process does not work as intended or fails due to unforeseen
      technical difficulties either this reporting cycle or in the future.


Agency Response and OIG Comments

NSF reviewed a draft of this report and noted that it has developed a multi-stage
recipient reporting process and successfully conducted reviews for significant
errors and material omissions from October 22 through October 29.

We have attached NSF’s response to this report in its entirety as an appendix.




4
  While NSF is ensuring that three significant reporting errors, if found, are corrected in the
current quarterly reports, the policies we reviewed did not indicate that NSF will be conducting
preventive follow-up in the next quarter for the other errors identified that they believe are less
significant.

                                                                                    Page 4 of 8
OIG Contact and Staff Acknowledgements

Karen Scott - Senior Audit Manager
(703) 292-7966 or kscott@nsf.gov

In addition to Ms. Scott, Kristen Cutforth, Elizabeth Goebels and Laura Skopec
made key contributions to this report.




                                                                 Page 5 of 8
Appendix A: Background, Objective, Scope, and Methodology

Background

The National Science Foundation (NSF) received $3 billion under the Recovery
Act for investments in basic research, education, and research infrastructure.
According to NSF, this investment will have an immediate impact on research
investigators, post-docs, graduate and undergraduate students, and educators
throughout the nation.

However, these significant funds come with additional transparency,
accountability, and reporting requirements. The Recovery Act requires recipients
to submit quarterly reports to a central reporting website. These reports will
contain a wealth of information taxpayers may be interested in, including the total
amount of recovery funds received, a description of the project or activity, and an
estimation of the number of jobs created and retained by the project. These new
reporting requirements are intended to promote transparency, which will help
drive accountability for the timely, prudent, and effective spending of Recovery
Act dollars.

Objective, Scope, and Methodology

Because of inherent challenges associated with these new reporting
requirements, the Recovery Accountability and Transparency Board (RATB),
which is responsible for coordinating and conducting oversight of Federal
Recovery Act spending, has requested that each Inspector General of an agency
receiving Recovery Act funds perform an audit, according to the RATB’s
specifications, of their agency’s plans for ensuring data quality of Recovery Act
quarterly reports. The objective of this audit, as requested by the RATB, was to
determine whether NSF has established a process to perform limited data quality
reviews intended to identify material omissions and/or significant reporting errors
on recipient’s Recovery Act quarterly reports and notify the recipients of the need
to make appropriate and timely changes.

To accomplish this objective, we reviewed NSF’s policies, procedures, and
processes as of October 7, 2009, for monitoring recipient reporting of Recovery
funds for the quarter ending September 30, 2009. 5 We also reviewed relevant
Office of Management and Budget (OMB) guidance 6 and interviewed NSF
officials. However, due to the timing of this audit, we could not confirm that
NSF’s automated system and tracking tool would be fully functional in time for
5
  At the time of our audit, NSF’s data quality policies and procedures were in draft form and,
consequently, subject to change.
6
  OMB Memorandum for the Heads of Departments and Agencies, M-09-21, “Implementing
Guidance for the Reports on Use of Funds Pursuant to the American Recovery and Reinvestment
Act of 2009,” June 22, 2009.

                                                                            Page 6 of 8
reviews of the first quarter reports, and did not test NSF's information system
controls to ensure automated data quality checks will in fact function as intended.
Further, while OMB guidance requires Federal agencies to address reporting
problems of both Recovery Act prime recipients and sub-recipients, this audit
focused on whether NSF has a process in place to identify material omissions
and significant reporting errors for prime recipients.

We conducted this performance audit between September 2009 and October
2009 in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objective.




                                                                    Page 7 of 8
                             NATIONAL SCIENCE FOUNDATION
                                4201 WILSON BOULEVARD
                               ARLINGTON, VIRGINIA 22230



                                       October 28, 2009


   OFFICE OF THE 

     DIRECTOR 



 MEMORANDUM


 To:            Deborah H. Cureton
                Associate lnspector General for Audit

From:           Cora B. Marrett
                Acting Deputy Director, National Science Foundation

Subject:        Response to the Office of Inspector General Draft Report "Audit of NSF's
                Recovery Act Data Quality Review Process"


Thank you for the opportunity to comment on the draft audit report regarding the National
Science Foundation's (NSF) American Recovery and Reinvestment Act (ARRA) of 2009
data quality review process. We are pleased that your audit found that NSF "appears to
be putting in place an adequate process" to meet OMB requirements for data quality
reviews. The Foundation has implemented an overall framework for ARRA investments
that provides sound managerial stewardship and has established a comprehensive
process to perform data quality reviews. This reflects the hard work by our dedicated
staff in developing and implementing plans and protocols for our reviews.

We have developed a multi-stage recipient reporting process throughout the quarter that:
(1) reviews for material omissions and/or significant errors, (2) checks for compliance
through data matches, (3). samples descriptive fields, and (4) includes a Federal
Financial Report (FFR) expenditure check. We successfully conducted reviews for
material omissions and/or significant errors during day 22 through 29 as required.

During the audit process, NSF worked very closely with the Office of lnspector General
(OIG) to provide necessary and timely information. We appreciate the suggestions your
office has provided as we continue to improve the implementation of our data quality
reviews. We look forward to continuing the professional and cooperative relationship that
our offices have established

NSF was honored by the recognition of the Foundation's strong role in reinvesting in the
American economy with its inclusion in ARRA.




                                                        L
                                    Cora B. Marrett
